              TABLE OF CONTENTS


INSPECTOR GENERAL’S MESSAGE                  i
NCUA AND OFFICE OF INSPECTOR GENERAL
                                             1
  MISSION STATEMENTS
INTRODUCTION                                 2
NCUA ORGANIZATIONAL CHART                    5
NCUA HIGHLIGHTS                              6
FEDERALLY INSURED CREDIT UNIONS HIGHLIGHTS   9
LEGISLATIVE HIGHLIGHTS                       11
OFFICE OF THE INSPECTOR GENERAL              14
   AUDIT ACTIVITY                            16
   INVESTIGATIVE ACTIVITY                    26
   LEGISLATIVE AND REGULATORY REVIEWS        29
TABLE I – REPORTS WITH QUESTIONED COSTS      31
TABLE II – REPORTS WITH RECOMMENDATIONS
                                             32
  THAT FUNDS BE PUT TO BETTER USE
TABLE III – SUMMARY OF OIG ACTIVITY          33
INDEX OF REPORTING REQUIREMENTS              34
                                                                  As part of our oversight function and our commitment to
                                                                  ensure that the agency operates effectively, we premised
                                                                  the decision to conduct the DOR review on NCUA’s stated
                                                                  mission:     “To facilitate the availability of credit union
                                                                  services to all eligible consumers, especially those of modest
                                                                  means, through a regulatory environment that fosters a safe
                                                                  and sound credit union system.” The DOR review concluded
                                                                  that NCUA has a process in place for examiners to
                                                                  effectively identify deficiencies in the DOR and,
           INSPECTOR GENERAL'S MESSAGE                            subsequently, to track credit unions’ efforts to resolve
                TO THE NCUA BOARD                                 identified deficiencies in a timely manner.
                AND THE CONGRESS
                                                                  The OIG conducted the OPF review as part of our continuing
                                                                  mandate to help promote information and systems security
This reporting period saw important and prolific audit
                                                                  at NCUA. We intend to report fully in the next reporting
activity in the Office of Inspector General (OIG), as the audit
                                                                  period on the final report to management and the agency’s
staff conducted reviews in the following areas: (1) a review
                                                                  response to our recommendations.
to determine if significant real estate lending risks exist in
federally chartered credit unions which should lead to an
                                                                  More than ever, the OIG is dedicated to accomplishing its
audit engagement; (2) a review to determine whether NCUA
                                                                  mission of conducting independent audits, investigations,
examiners are preparing Documents of Resolution (DOR) to
                                                                  and reviews to help the NCUA accomplish its mission;
reduce areas of unacceptable risk and, subsequently,
                                                                  improve its effectiveness; and prevent and detect fraud,
ensuring that credit unions are progressing in their efforts to
                                                                  waste, and abuse. We look forward to working together
address and correct deficiencies noted in the DOR; and (3) a
                                                                  successfully with the agency, now and in the future, to
review to determine whether NCUA is accurately maintaining
                                                                  achieve our strategic mission and goals.
and storing Official Personnel Folders (OPF), and to evaluate
the agency’s ability to migrate to an electronic OPF system.

Given the ongoing problems in the sub-prime mortgage
market, the OIG’s inquiry into the extent of real estate
lending risks at federally chartered credit unions, and
whether the agency was mitigating those actual or potential
risks, was timely. As a result of the review, the OIG                                           William A. DeSarno
recommended, among other things, that NCUA management                                           Inspector General
review the current tracking and reporting of sub-prime
mortgages and determine if these mortgages should be
specifically reported on the credit union quarterly report.

                               i                                                                ii
                THE NCUA MISSION
                                                                                     INTRODUCTION
NCUA’s charge is to foster the safety and soundness of
federally insured credit unions and to better enable the credit   The National Credit Union Administration (NCUA) was
union community to extend the availability of financial           established as an independent, federal regulatory agency on
services for provident and productive purposes to all who         March 10, 1970. The agency is responsible for chartering,
seek such service, while recognizing and encouraging credit       examining, supervising, and insuring federal credit unions. It
unions’ historical emphasis on extension of financial services    also insures state-chartered credit unions that have applied
to those of modest means.                                         for insurance and have met National Credit Union Share
                                                                  Insurance requirements. The NCUA is funded by the credit
The NCUA’s mission is accomplished by managing the                unions it supervises and insures. As of June 30, 2007, the
National Credit Union Share Insurance Fund in an efficient        NCUA was supervising and insuring 5,118 federal credit
and prudent manner through an effective supervision               unions and insuring 3,120 state-chartered credit unions, a
program and a regulatory environment that encourages              total of 8,238 institutions. This represents a decline of 71
innovation, flexibility and continued focus on attracting new     federal and 53 state-chartered institutions since December
members and improving financial service to existing               31, 2006, for a total decline of 124 credit unions nationwide,
members.                                                          primarily as a result of mergers.

                                                                  The NCUA operates under the direction of a Board composed
                                                                  of three members. Board members are appointed by the
                                                                  President and confirmed by the Senate. They serve six-year
                                                                  terms. Terms are staggered, so that one term expires every
                                                                  two years. The Board is responsible for the management of
 THE OFFICE OF INSPECTOR GENERAL MISSION                          the National Credit Union Administration, including the NCUA
                                                                  Operating Fund, the Share Insurance Fund, the Central
The OIG promotes the economy, efficiency, and effectiveness       Liquidity Facility, and the Community Development Revolving
of NCUA programs and operations, and detects and deters           Loan Fund.
fraud, waste, and abuse, thereby supporting the NCUA’s
mission of monitoring and promoting safe and sound federally      The NCUA executes its program through its central office in
insured credit unions.                                            Alexandria, Virginia and regional offices in Albany, New York;
                                                                  Alexandria, Virginia; Atlanta, Georgia; Austin, Texas; and
We accomplish our mission by conducting independent audits,       Tempe, Arizona.       The NCUA also operates the Asset
investigations, and other activities, and by keeping the NCUA     Management and Assistance Center (AMAC) in Austin, Texas.
Board and the Congress fully and currently informed of our        Please refer to the NCUA organizational chart on page 5.
work.


                              1                                                                 2
The NCUA Board adopted its 2007 budget of $152,016,840 on
November 16, 2006. The Full-Time Equivalent (FTE) staffing                                 NCUA Budget Dollars
authorization for 2007 is 958, remaining unchanged from the     Millions
2006 total.                                                          153
                                                                     152
                                                                     151
                                                                     150
                                                                     149
                                                                     148
                                                                     147
          Federally Insured Credit Unions                            146
                                                                     145
                                                                     144
                                                                     143
10000                                                                        2002      2003       2004     2005    2006   2007


8000 3866 3735 3593
                    3442 3302
                              3173
6000

4000                                                                                       NCUA Authorized Staff
        6118 5953 5776 5572 5393
                                 5189                         1000
2000                                                           900
                                                               800
    0                                               FISCUs     700
        2001 2002 2003 2004 2005 2006               FCUs       600
                                                               500
                                                               400
                                                               300
                                                               200
                                                               100
                                                                 0
                                                                      2002          2003        2004       2005    2006    2007




                            3                                                                          4
                                             NCUA HIGHLIGHTS
NCUA ORGANIZATIONAL CHART


                            NCUA DISCUSSING MATRIX ELIMINATION

                            NCUA is working with the National Association of State Credit
                            Union Supervisors (NASCUS) and reaching out to various
                            credit union industry trade groups to discuss possible
                            elimination of the CAMEL Matrix. CAMEL will continue to be
                            NCUA’s internal rating system. NCUA is confining its review
                            to the Matrix, an optional examiner tool in use since 1995.
                            The Matrix consists of static ratio benchmarks. CAMEL is not
                            an arithmetic score or a comparison to other credit unions of
                            similar asset sizes. An examiner’s overall assessment of the
                            credit union is based on numerous factors. As NCUA stated in
                            Letter to Credit Unions Number 03-CU-04, “CAMEL is not
                            intended to be used as a report card but as an internal tool to
                            measure risk and allocate resources for supervision
                            purposes.”

                            NCUA SEEKS DISMISSAL OF CONVERSION RULES
                            LAWSUIT

                            On September 7, 2007, NCUA filed a motion with the U.S.
                            District Court for the Eastern District of Virginia, to dismiss a
                            suit challenging credit union conversion rules promulgated by
                            NCUA. The organization that filed the original lawsuit, the
                            Coalition for Credit Union Charter Options, claims in its
                            complaint that it seeks to preserve charter choice for credit
                            unions. NCUA’s motion argues that the Coalition lacks
                            standing to bring its suit against NCUA regulations that
                            oversee credit union to bank charter conversions. A hearing


            5                                              6
on NCUA’s motion is tentatively scheduled for October 19,        (ARM) products described in the agencies’ Statement on
2007.                                                            Subprime Mortgage Lending (Subprime Statement), effective
                                                                 July 10, 2007.       The Subprime Statement recommends
FFIEC RELEASES REVISED BANK SECRECY/ANTI-                        communications that ensure consumers have clear, balanced,
MONEY LAUNDERING EXAMINATION MANUAL                              and timely information about the relative benefits and risks of
                                                                 certain ARM products. The illustrations are intended to assist
On August 24, 2007, the Federal Financial Institutions           institutions in providing this information. The illustrations
Examination Council (FFIEC) released a revised Bank Secrecy      consist of (1) an explanation of some key features and risks
Act/Anti-Money Laundering (BSA/AML) Examination Manual.          that the Subprime Statement identifies, including payment
The revised manual reflects the ongoing commitment of the        shock; and (2) a chart that shows the potential consequences
federal and state banking agencies and the Financial Crimes      of payment shock in a concrete, readily understandable
Enforcement Network (FinCEN) to provide current and              manner. The agencies are seeking public comment on all
consistent guidance on risk-based policies, procedures, and      aspects of the proposed illustrations.
processes for banking organizations to comply with the BSA
and safeguard operations from money laundering and
terrorist financing.    The 2007 version further clarifies
supervisory expectations since the July 28, 2006, update.
The NCUA worked with the Board of Governors of the Federal
Reserve System, the Federal Deposit Insurance Corporation,
the Office of the Comptroller of the Currency, the Office of
Thrift Supervision, and the Conference of State Bank
Supervisors to revise the manual in collaboration with FinCEN,
the administrator of the BSA. The Office of Foreign Assets
Control (OFAC) collaborated on the revisions made to the
section that addresses compliance with regulations enforced
by OFAC.

NCUA JOINS FEDERAL FINANCIAL REGULATORS IN
PROPOSING ILLUSTRATIONS OF CONSUMER
INFORMATION TO SUPPORT STATEMENT ON
SUBPRIME MORTGAGE LENDING

The Federal financial regulatory agencies, including NCUA,
issued on August 14, 2007, proposed illustrations of
consumer information for certain adjustable-rate mortgage

                              7                                                                8
    FEDERALLY INSURED CREDIT UNION                                LOANS AND INVESTMENTS INCREASED
              HIGHLIGHTS
                                                                  Loan growth of 4.86 percent resulted in an increase in total
                                                                  loans by $12 billion. Total net loans of $503 billion comprise
Credit unions submit quarterly call reports (financial and        69 percent of credit union assets.         Real estate loans
operational data) to the NCUA. An NCUA staff assessment of        increased 9.18 percent. First mortgage real estate loans are
the June 30, 2007, quarterly call reports submitted by all        the largest single asset category with $168.9 billion
federally insured credit unions found that key financial          accounting for 34 percent of all loans. Other real estate loans
indicators were stable.                                           of $86.4 billion account for 17% of all loans. Used car loans
                                                                  of $88.3 billion were 17% of all loans, while new car loans
                                                                  amounted to $87.7 billion or 17% of total loans. Credit card
KEY FINANCIAL INDICATORS STABLE                                   loans totaled $28.9 billion or 5% of total loans and other
                                                                  loans totaled $47.2 billion for 10% of total loans. Total
Looking at the June 30, 2007 quarterly statistics for major       investments increased 20.16 percent to $141.9 billion.
balance sheet items and key ratios shows the following for        Investments with maturities less than one year comprise 60.1
the nation’s 8,238 federally insured credit unions: assets grew   percent of total investments.
8.65 percent; net worth to assets ratio decreased from 11.54
to 11.40 percent; the loan to share ratio decreased from
82.23 percent to 80.34 percent; the delinquency ratio
increased from .68 to .69 percent; and credit union return on
average assets decreased from .82 percent to .75 percent.


SAVINGS SHIFTING TO CERTIFICATES OF DEPOSIT

Total insured share accounts increased 9.68 percent. Share
certificates increased 7.08%. Regular shares comprise 29.3
percent of total share accounts; share certificates comprise
32.1 percent; money market shares comprise 17.1 percent;
and share draft accounts comprise 11.4 percent; and all other
share accounts comprise 10.1 percent.




                              9                                                                 10
                                                                     lending investment limits, and ease restrictions on mergers
                                                                     and conversions.

            LEGISLATIVE HIGHLIGHTS                                   SUBPRIME MORTGAGE MARKET PRIORITY ISSUE FOR
                                                                     FINANCIAL SERVICES PANELS

                                                                     When Congress returned to session on September 4, 2007,
REPRESENTATIVE FRANK ADVOCATES IMPOSING CRA                          House and Senate panels on financial institutions turned their
RULES ON CREDIT UNIONS                                               attention back to the subprime mortgage market. On
                                                                     September 5, 2007, Senate Banking Committee Chairman
House Financial Services Chairman Barney Frank, D-Mass.,             Christopher Dodd (D-Conn.) introduced legislation to curb
recently told credit union representatives that he would like to     subprime lending abuses. The bill, in part, would clarify
extend Community Reinvestment Act (CRA) requirements to              mortgage brokers’ fiduciary duty to borrowers and would
credit unions and other financial companies. On September            expand the protection for those who assume a high-cost loan
11, 2007, Rep. Frank spoke before the National Association of        under the 1994 Home Ownership and Equity Protection Act
Federal Credit Unions (NAFCU), stating that he hopes to hold         (HOEPA). On the same day, his counterpart in the House,
hearings on the issue next year but said he believes most            Financial Services Chairman Barney Frank (D-Mass.), said he
credit unions would pass any new requirements with flying            expects soon to introduce his legislation to address both the
colors. Rep. Frank said further that most credit unions              subprime mortgage crisis and predatory lending issues.
already invest in their communities and would just have to
“demonstrate or document” it.                                        NCUA TESTIFIES ON MORTGAGE LENDING CONSUMER
                                                                     PROTECTION LAWS
FRANK OPTIMISTIC THAT CURIA WILL CLEAR BOTH
HOUSE AND SENATE                                                     On July 25, 2007, NCUA Director of Examination and
                                                                     Insurance, David M. Marquis, testified before the House
At the same NAFCU caucus, Rep. Frank also vowed to move              Financial Services Subcommittee on Oversight and
forward with H.R. 1537, the Credit Union Regulatory                  Investigations on oversight of consumer laws pertaining to
Improvements Act (CURIA). Rep. Frank confirmed that he is            mortgage lending. Mr. Marquis stressed the priority NCUA
optimistic that major provisions of CURIA could clear both the       places on ensuring that credit unions comply with all
House and Senate, but that not all of the bill is likely to do so.   nondiscrimination laws and work to protect consumers
Among other things, CURIA would raise the cap on business            against discriminatory or unfair home mortgage lending
lending to 20% of a credit unions’ assets, from 12.25%. It           practices.    NCUA enforces fair lending laws using a
would also let any credit union, regardless of charter type,         comprehensive examination process and Home Mortgage
add underserved areas to its field of membership, increase           Disclosure Data (HMDA). Further, by reviewing member
                                                                     complaints, NCUA is able to evaluate each credit union’s

                               11                                                                  12
compliance and gain a more complete picture of how a credit
union makes mortgage loans. NCUA continues to refine its
methods to oversee fair lending law compliance. Moreover,
                                                                    OFFICE OF THE INSPECTOR GENERAL
Mr. Marquis testified, NCUA works to ensure that more
sophisticated training results in a more complete
                                                                 The Office of the Inspector General was established at the
understanding of lending patterns in specific geographic areas
                                                                 NCUA in 1989 under the authority of the Inspector General
as well as heightened awareness of how to detect patterns of
                                                                 Act of 1978, as amended in 1988. The staff consists of the
discrimination.
                                                                 Inspector General, Counsel to the Inspector General,
                                                                 Assistant Inspector General for Audits, Director of
                                                                 Investigations, two Senior Auditors, Senior Information
                                                                 Technology Auditor, and Office Manager.

                                                                 The Inspector General reports to, and is under the general
                                                                 supervision of, the NCUA Board. The Inspector General is
                                                                 responsible for:

                                                                 1. Conducting, supervising, and coordinating audits and
                                                                 investigations of all NCUA programs and operations;

                                                                 2. Reviewing policies and procedures to ensure efficient and
                                                                 economic operations as well as preventing and detecting
                                                                 fraud, waste, and abuse;

                                                                 3. Reviewing      existing and proposed legislation and
                                                                 regulations to evaluate their impact on the economic and
                                                                 efficient administration of agency programs; and

                                                                 4. Keeping the NCUA Board and the Congress apprised of
                                                                 significant findings and recommendations.




                             13                                                               14
                                                                                                AUDIT ACTIVITY

                                                                             AUDIT REPORTS ISSUED
                  William DeSarno

                         Inspector
                          General
                                                                             OIG-07-06 – July 10, 2007
                                                                             NCUA’S RISK-FOCUSED EXAMINATIONS TRACKING
                                                                             IDENTIFIED DOCUMENTS OF RESOLUTION
                                                                             This survey report follows-up on our prior Risk Focus
            Sharon                                                           Exam (RFE) review.        Specifically, we evaluated the
           Regelman                                                          process in place to identify, track and correct deficiencies
        Office Manager                                                       identified by examiners in Documents of Resolution (DOR)
                                                                             during supervision and examination contacts at Federal
                                                                             credit unions (FCUs).

                                                                             We reviewed a judgmental sample of 25 FCUs, five credit
Sharon Separ          Anne Voegele          Jim Hagen                        unions from each of the five NCUA regions that had at
                                                                             least one outstanding (open) DOR. We concluded that for
Counsel to the          Director of       Assistant IG for
     IG               Investigations           Audits                        the 25 DORs we sampled, NCUA examiners were
                                                                             monitoring in a timely manner the progress of the FCUs to
                                                                             address and resolve the deficiencies noted in the DOR.
                                                                             We based our conclusion upon reviews of examiner work
                                                                             papers and NCUA monitoring reports.
                      Charles                Dwight          Marvin Stith,
                  Funderburk, CPA         Engelrup, CPA       CPA, CISA
                                                                             We also reviewed a second judgmental sample of 25
                      Senior Auditor      Senior Auditor      Senior IT      FCUs, five credit unions from each of the five NCUA
                                                               Auditor
                                                                             regions with at least one closed or resolved DOR. Based
                                                                             on this sample, we found that in 23 of the 25 instances,
                                                                             FCUs closed the DOR in accordance with the DOR
                                                                             resolution date. In one case, the DOR was no longer
                                                                             applicable and, one DOR was not closed in accordance
                                                                             with the resolution date. The number of months between


                                     15                                                                    16
problem identification and closure of the DOR was             audit engagement. Initially, we attempted to review the
approximately ten months. We based our conclusion             area of sub-prime mortgages. However, we determined
upon reviews of examiner work papers and NCUA                 that NCUA does not collect data on sub-prime mortgage
monitoring reports.                                           loans via the credit union quarterly call reports. Currently,
                                                              these loans are captured for reporting purposes within a
The NCUA Office of Examination and Insurance (E&I)            much larger group of mortgage loans that include
informed us that the agency had developed and                 adjustable rate mortgages as well as balloon/hybrid loans.
implemented a national tool for monitoring contact and        Consequently, it was not possible to specifically identify
DOR information called the AIRES Exam Management              sub-prime mortgage loans.
Console – Online. Additionally, E & I was in the process
of developing, testing, and implementing five on-line DOR     The Office of Inspector General determined through this
monitoring reports that will work outside of the AIRES        survey that an audit of credit union real estate lending is
system.                                                       not warranted at this time primarily because, as explained
                                                              above, NCUA does not collect data on sub-prime
Based on information we received about agency work in         mortgages. Furthermore, our sample review of credit
progress for supervision contacts and DOR monitoring,         unions with high real estate loans to total loan ratios
and the results of our review to date, the OIG does not       indicated that such credit unions pose no greater overall
have recommendations to the agency for improvement at         risk than all federally chartered credit unions viewed as a
this time. We may revisit this area in the future to assess   whole. In reaching this conclusion, we conducted a
the additional controls being implemented by the new on-      survey the objectives of which were to:
line management tools.                                            1. Determine the significance of real estate lending in
                                                                      the credit union industry;
OIG-07-07 – September 5, 2007                                     2. Identify potential real estate lending risks in the
REAL ESTATE LENDING                                                   credit union industry; and
                                                                  3. Determine what NCUA is doing to mitigate
As of December 31, 2006, federally chartered credit                   identified potential real estate lending risks.
unions held approximately $131 billion in real estate
loans. In addition, within the past year the U.S. Congress    Real estate lending is a significant program of federally
has shown an interest in regulatory practices with regard     chartered credit unions. A significant percentage (34%)
to sub-prime mortgage lending, particularly with certain      of federally chartered credit unions has real estate lending
types of adjustable rate mortgages.                           programs. Real estate loans comprise 49% of total loans
                                                              in federally chartered credit unions and 34% of total
The Office of Inspector General conducted an audit survey     assets. Approximately 20% of federal credit unions have
to determine if there were any real estate lending risks in   25% or more real estate loans to assets and over 4%
federally chartered credit unions which could lead to an      have 50% or more real estate loans to assets.


                              17                                                             18
                                                                       •   A lack of credit union management planning and
Real estate lending potentially impacts all seven risk                     oversight in such areas as business plans, asset
component areas NCUA has identified in its Examiners                       liability management, and budgeted/planned
Guide:                                                                     parameters directly related to real estate lending.
 • Credit risk due to loan underwriting quality and
    products offered;                                               OIG-07-08 – September 12, 2007
 • Interest rate risk due to mortgage mismatches with               INDEPENDENT EVALUATION OF THE NATIONAL CREDIT UNION
    the types of funding and rising interest rates;                 ADMINISTRATION INFORMATION SECURITY PROGRAM 2007
 • Liquidity risk that can occur with high loan to share
    ratios and holding of loans;
                                                                    The Office of Inspector General for the National Credit Union
 • Compliance risk with regard to real estate consumer
                                                                    Administration engaged Grant Thornton LLP to conduct an
    compliance regulations;
                                                                    independent evaluation of its information systems and
 • Transaction risk due to the complexity of real estate
                                                                    security program and controls for compliance with the Federal
    transactions and products;
                                                                    Information Security Management Act (FISMA), Title III of
 • Strategic risk due to the complexity and foresight in
                                                                    the E-Government Act of 2002.
    planning; and
 • Reputation risk whereby a credit union may be
                                                                    Grant Thornton evaluated NCUA’s security program through
    impacted by all of the above risks.
                                                                    interviews, documentation reviews, and sample testing. We
                                                                    evaluated NCUA against standards and requirements for
NCUA appears to be identifying and addressing most
                                                                    federal government agencies such as those provided through
potential real estate lending risks. This is evidenced
                                                                    FISMA, National Institute of Standards and Technology
through the agency’s issuance of extensive guidance for
                                                                    (NIST) Special Publications (SPs) and Federal Information
examiners and credit unions, identification of risk trends
                                                                    Processing Standards (FIPS), and Office of Management and
in quarterly reports, and statistical data analysis.
                                                                    Budget (OMB) memorandums.          We conducted an exit
However, we identified the following areas where
                                                                    conference with NCUA officials on June 29, 2007, to discuss
potential risk may be elevated due to current practices:
                                                                    evaluation results.
    • A lack of examination documentation 1 in support
       of examiner loan reviews and consumer
                                                                    The NCUA made noticeable progress in strengthening its
       compliance reviews;
                                                                    Information Technology (IT) security program during Fiscal
                                                                    Year (FY) 2007. Notable accomplishments include:
                                                                       • Completion of Certification and Accreditation
   1
    It is not NCUA policy for examiners to detail work performed          packages for all of its FISMA systems, and
   during an examination as long as no problems were found by the      • Implementation of additional encryption protection
   examiner. Consequently, while we could not identify all of the
                                                                          for data on examiner laptops.
   examination procedures performed, we did find that examiners
   were following established procedures.

                                 19                                                              20
While NCUA has made commendable progress in addressing
deficiencies reported last year, management could still    The OIG issued two reports during the past year that
improve IT security controls in the following areas:       reported on the testing of the effectiveness of information
  • NCUA needs a better document management                security and internal controls:
       program.                                              • On September 12, 2007, the OIG issued a report
  • NCUA has not implemented continuing education                containing an Independent Evaluation of the NCUA’s
       requirements for its Information Technology               Information Security Program - 2007. The content of
       employees.                                                the independent evaluation report supports the
                                                                 conclusions presented in this report.
  • Employee enter/exit/change procedures do not
       ensure timely removal of terminated employees’        • On February 12, 2007, the OIG issued the Financial
       access to NCUA systems.                                   Statement Audit Report for the year ended December
                                                                 31, 2006. The purpose of this audit was to express
  • E-Authentication risk assessments for its systems
                                                                 an opinion on whether the financial statements were
       need to be completed.
                                                                 fairly presented. In addition, the internal control
  • A formal agency wide security configuration guide
                                                                 structure was reviewed and an evaluation of
       should be developed.
                                                                 compliance with laws and regulations was performed
  • Incident response procedures should be followed.
                                                                 as part of the audit. The result of this audit was an
  • Personnel security awareness training needs to be
                                                                 unqualified opinion, stating that the financial
       completed in FY 2007.
                                                                 statements were presented fairly. Although there
  •     NCUA’s Plan of Actions and Milestones (POA&M)
                                                                 were no material weaknesses identified during the
       process needs improvement.
                                                                 review of the internal control structures pertinent to
  • Security controls testing for all of NCUA’s FISMA
                                                                 financial reporting, several recommendations were
       systems needs to be completed.
                                                                 made relating to weaknesses in the financial and
  • Segregation of duties should be maintained or
                                                                 information security areas.
       compensating controls established.
  • NCUA vulnerability management needs improvement.

OIG-07-09 – September 12, 2007
OIG REPORT TO OMB ON THE NATIONAL CREDIT UNION
ADMINISTRATION SECURITY PROGRAM 2007

This report contains a summary of our evaluation of the
NCUA’s information security program presented in the OMB
prescribed format.



                          21                                                           22
AUDITS IN PROGRESS                                                 REVIEW OF THE OFFICE OF SMALL CREDIT UNION INITIATIVES

                                                                   The Office of Small Credit Union Initiatives’ (OSCUI) mission is
OFFICIAL PERSONNEL FOLDERS                                         to assist in the agency’s risk mitigation program and foster
                                                                   credit union development, particularly in the expansion of
Official Personnel Folders (OPFs) contain records that             services provided by small credit unions to all eligible
document an individual employee’s Federal government               consumers. Individualized assistance is provided for credit
employment history.        The OPF follows an employee             union management and staff that will expand services for
throughout his or her Federal career. The OPFs maintained in       consumers (strategic assistance) and enhance credit union
many federal agencies, including the National Credit Union         operations (operational assistance).           As part of this
Administration (NCUA), are hardcopy (paper) versions. In           assistance, the Community Development Revolving Loan Fund
recent years, Congressional hearings have looked at OPF            (the “Fund”) was established by Congress in 1979, to bring
maintenance and the feasibility of agencies’ converting from       basic financial services to communities; increase economic
the current paper OPF system to an electronic system. Some         activities in communities; and aid in the efficient operations of
federal agencies have already converted and many others are        credit unions. The Fund’s technical assistance grant and loan
in the process of doing so. Agencies converting from paper to      programs are administered by OSCUI.
electronic OPFs can reduce paperwork, storage space, and
staff hours to maintain the files. In addition, electronic OPFs    Since inception of the Fund, Congress has appropriated $13.7
may improve the accuracy of files, and provide better access       million to the Fund for loans and $3 million to the fund for
to employees requesting to review their own records.               grants. In 2007, Congress appropriated $940,500 to the Fund
                                                                   to be used for grants. The OIG has not reviewed this
Due to the importance of OPFs, the current Federal emphasis        operation at NCUA in the past and initiated a survey in
on protecting Personally Identifiable Information (PII), and the   September 2007, to obtain an understanding of the Office of
attention to this issue by the Office of Management and            Small Credit Union Initiatives. Specifically, we will determine
Budget (OMB), as part of the President’s Management                (1) How are grant and loan funds awarded? (2) Are grants
Agenda, the Office of Inspector General (OIG) added this           awarded competitively?       and (3) What grant and loan
survey review to its 2007 Annual Performance Plan. Our             contingencies exist and are they being met?
objectives were to determine whether NCUA is accurately
maintaining and storing OPFs, and to evaluate the agency’s         ENCRYPTION REVIEW
ability to migrate to an electronic OPF system. We issued a
draft report for comment in September 2007.                        Following numerous incidents involving the compromise or
                                                                   loss of sensitive personal information, OMB issued
                                                                   memorandum M-06-16 requiring agencies to take specific
                                                                   actions to protect personally identifiable information. In

                              23                                                                 24
2006, the NCUA OIG completed fieldwork and subsequently
issued a report regarding NCUA’s compliance with M-06-16
(OIG-07-01). During this limited scope review and the 2006                   INVESTIGATIVE ACTIVITY
FISMA audit, the OIG identified several weaknesses
regarding the use of encryption at NCUA.
                                                                 In accordance with professional standards and guidelines
In this follow-up review we will determine if NCUA is            established by the Department of Justice, the OIG conducts
adequately protecting sensitive electronic data. Specifically,   investigations of criminal, civil, and administrative wrongdoing
we will be reviewing examiner notebooks, USB drives, and         involving agency programs and personnel. Our investigative
other media to determine if sensitive credit union member        program focuses on activities designed to promote economy,
data obtained during examinations are stored in an               effectiveness, and efficiency, as well as fighting fraud, waste,
encrypted format. We initiated a follow-up review of this        and abuse in agency programs. In addition to our efforts to
area in July 2007.                                               deter misconduct and promote integrity awareness among
                                                                 agency employees, we investigate referrals and direct reports
                                                                 of employee misconduct. Investigations may involve possible
SIGNIFICANT AUDIT RECOMMENDATIONS ON WHICH                       violations of regulations regarding employee responsibilities
CORRECTIVE ACTION HAS NOT BEEN COMPLETED                         and conduct, Federal criminal law, and other statutes and
                                                                 regulations pertaining to the activities of NCUA employees.
As of September 31, 2007, there were no significant audit
recommendations on reports issued over six months ago that       Moreover, we receive complaints from credit union members
have not been either fully implemented or are in the process     and officials that involve NCUA employee program
of implementation.                                               responsibilities. We examine these complaints to determine
                                                                 whether there is any indication of NCUA employee
                                                                 misconduct. If not, we refer the complaint to the appropriate
                                                                 regional office for response, or close the matter if contact
                                                                 with the regional office indicates that the complaint has
                                                                 already been appropriately handled.

                                                                 OIG HOTLINE CONTACTS

                                                                 The OIG maintains a toll free hotline to enable employees and
                                                                 citizens to call with information about waste, fraud, abuse or
                                                                 mismanagement involving agency programs or operations.
                                                                 We also receive complaints through an off-site post office
                                                                 box, from electronic mail, and facsimile messages.          All

                             25                                                                26
                                                                 false representations on his NCUA employment application.
information received from any of these sources is referred to
                                                                 The OIG investigated and found the allegations to be
as a hotline contact. The OIG hotline program is handled by
                                                                 unsubstantiated.
our Office Manager, under the direction of our Director of
Investigations. The majority of hotline contacts are from
                                                                 ABUSE OF AUTHORITY
consumers seeking help with a problem with a credit union.
These contacts are referred to the appropriate NCUA regional
office for assistance.    During this reporting period, we       The OIG received an allegation that an NCUA senior official
referred 152 consumer complaints to regional offices. Also       had abused his authority and shown preferential treatment.
during this reporting period, we referred one allegation back    The OIG conducted an initial review during which some of the
to agency management for action.                                 allegations were disproved and others were unsubstantiated.
                                                                 During the review, the complainant withdrew the allegations
INVESTIGATIONS                                                   and the matter was closed to the file.

                                                                 SEXUAL HARASSMENT
During the last reporting period the Office of Investigations
initiated five new matters and closed four.
                                                                 The OIG received an allegation that an NCUA Examiner
                                                                 sexually harassed several women.   This investigation is
MISUSE OF GOVERNMENT ISSUED CREDIT CARD
                                                                 ongoing.

During the last reporting period, we reported a referral from    ABUSE OF FAIR DEBT COLLECTION ACT
an NCUA Regional Office of allegations that an employee had
been misusing her Government issued credit card. This
                                                                 The OIG received numerous allegations from a former NCUA
employee had previously been the subject of an OIG
                                                                 Examiner claiming that the agency had falsely denied him
investigation for the same offense. The previous investigation
                                                                 leave and had failed to advise him that he owed the agency
determined that the employee had repeatedly misused her
                                                                 money after he retired. The former Examiner further alleged
credit card for personal purchases and in that case the
                                                                 that this resulted in damage to his credit report and was
agency imposed a three day suspension.               In this
                                                                 seeking recompense.       The OIG reviewed the matter and
investigation, the OIG again determined that the employee
                                                                 found the allegations to be without merit.
had repeatedly misused her credit card. During this reporting
period, the employee was suspended for 20 days.
                                                                 OFFICE OF SPECIAL COUNSEL REQUEST
FALSE STATEMENTS
                                                                 The OSC referred to the OIG a whistleblower allegation
                                                                 concerning the agency’s policies and practices related to
During this reporting period, the OIG received an allegation
                                                                 documenting and compensating employee hours of work.
that an NCUA employee may have made false statements and
                                                                 This matter is ongoing.

                             27                                                              28
   LEGISLATIVE AND REGULATORY REVIEWS                                                                     Joint Interagency Proposed Guidance on
                                                                                                           Garnishment Federal Benefit Payments
                                                                                                             Proposed Illustrations of Consumer
                                                                                                        Information for Subprime Mortgage Lending
   Section 4(a) of the Inspector General Act requires the
                                                                             12 CFR Parts 703 and 704       Proposed Rule: “Permissible Foreign
   Inspector General to review existing and proposed legislation                                          Currency Investments for Federal Credit
   and regulations relating to the programs and operations of                                               Unions and Corporate Credit Unions
   the NCUA and to make recommendations concerning their                         12 CFR Part 701           “Purchase, Sale, and Pledge Of Eligible
   impact. Moreover, we routinely review proposed agency                                                            Obligations”-Comments
   instructions and other policy guidance, in order to make                      12 CFR Part 701          “Chartering and Field of Membership for
   recommendations concerning economy and efficiency in the                                                  Federal Credit Unions” - Comments
   administration of NCUA programs and operations and the                        12 CFR Part 701            “Reincorporation of FCU Bylaws Into
   prevention and detection of fraud, waste and abuse.                                                        NCUA Regulations” - Comments
                                                                                 12 CFR Part 701             “Member Inspection of Credit Union
                                                                                                         Books, Records and Minutes” - Comments
   During the reporting period, the OIG reviewed 14 items,
                                                                                12 CFR Part 708b                “Disclosure of Merger Related
   including proposed and final legislation and regulations, and                                        Compensation Arrangements” – Comments
   comments to proposed regulations. The OIG also responded
   to three Freedom of Information Act requests.


   SUMMARY OF STATUTES AND REGULATIONS REVIEWED
      Legislation/E.O.                           Title
       H.R. 928, S. 1783    “The Improving Government Accountability Act”
            S. 680            “Accountability in Government Contracting
                                              Act of 2007”
        H.R. 3268           “Government Accountability Office Act of 2007”



   Regulations/Rulings                           Title
      12 CFR 701.3          Final Rule: “Member Inspection of Credit Union
                                     Books, Records and Minutes”
 12 CFR Parts 748 and 749      Final Rule: “Catastrophic Act Reporting;
                                    Records Preservation Program”
12 CFR Parts 701, 703, 707,       Final Rule: “Technical Corrections”
   710, 722, 723 and 742


                                   29                                                                        30
                                          TABLE I                                                                          TABLE II

                  INSPECTOR GENERAL ISSUED REPORTS                                            INSPECTOR GENERAL ISSUED REPORTS WITH
                       WITH QUESTIONED COSTS                                              RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                    Number of   Questioned Unsupported                                                            Number of   Dollar
                                                     Reports      Costs       Costs                                                                Reports    Value
            For which no management decision
A.             had been made by the start                                                           For which no management decision had
                                                                                           A.
                 of the reporting period.              0           $0          $0               Been made by the start of the reporting period.      0         $0

B.                    Which were issued
               during the reporting period.            0            0           0          B.    Which were issued during the reporting period.      0          0

                      Subtotals (A + B)                0            0
                                                                                                                 Subtotals (A + B)                   0          0
C.           For which management decision
       was made during the reporting period.           0            0           0                 For which management decision was made
     (i)      Dollar value of disallowed                                                   C.
                                                                                                            during the reporting period.             0          0
              costs                                    0            0           0
     (ii)        Dollar value of                                                                  (i)          Dollar value of recommendations
                   costs not disallowed                0            0           0                           agreed to by management.                N/A        N/A
            For which no management decision
D.                    has been made by
                                                                                                  (ii)         Dollar value of recommendations
              the end of the reporting period.         0            0           0
                                                                                                           not agreed to by management.             N/A        N/A
            Reports for which no management
E.                    decision was made
                                                                                                 For which no management decision was made
              within six months of issuance.           0            0           0          D.
                                                                                                         by the end of the reporting period.         0          0

 Questioned costs are those costs the OIG has questioned because of
                                                                                                 For which no management decision was made
 alleged violations of laws, regulations, contracts, or other agreements;                  E.
                                                                                                           within six months of issuance.            0          0
 findings which at the time of the audit are not supported by adequate
 documentation; or the expenditure for the intended purpose is unnecessary               Recommendations that "Funds to be Put to Better Use" are those OIG
 or unreasonable.                                                                        recommendations that funds could be used more efficiently if management
 Unsupported costs (included in "Questioned Costs") are those costs the OIG              took    actions    to     reduce    outlays,      de-obligate    funds from
 has questioned because of the lack of adequate documentation at the time                programs/operations, avoid unnecessary expenditures noted in pre-award
 of the audit.                                                                           reviews of contracts, or any other specifically identified savings.




                                               31                                                                                 32
                              TABLE III

                 SUMMARY OF OIG ACTIVITY                                         INDEX OF REPORTING REQUIREMENTS
            APRIL 1 THROUGH SEPTEMBER 30, 2007
                                                                                SECTION                    DATA REQUIRED                           PAGE REF
                 PART I – AUDIT REPORTS ISSUED                                   4(a)(2)              Review of Legislation and Regulations           29
                                                                                 5(a)(1)          Significant Problems, Abuses, or Deficiencies       16
Report                                                                Date                      Relating to the administration of programs and
Number                            Title                              Issued                    Operations disclosed during the reporting period.
                                                                                 5(a)(3)         Recommendations with Respect to Significant          16
               NCUA’s Risk Focused Examinations Tracking                                                Problems, Abuses, or Deficiencies.
OIG-07-06                                                          07/10/2007
                  Identified Documents of Resolution                             5(a)(3)           Significant Recommendations Described in           25
                                                                                                     Previous Semiannual Reports on Which
OIG-07-07                 Real Estate Lending                      09/05/2007                     Corrective Action Has Not Been Completed.
                                                                                 5(a)(4)         Summary of Matters Referred to Prosecution          None
              Independent Evaluation of the National Credit                                        Authorities and Prosecutions, Which Have
OIG-07-08       Union Administration Information Security          09/12/2007                                         Resulted.
                            Program 2007                                         5(a)(5)        Summary of Each Report to the Board Detailing        None
             OIG Report to OMB on the National Credit Union                                       Cases Where Access to All Records Was Not
OIG-07-09                                                          09/12/2007                    Provided or Where Information Was Refused.
                 Administration Security Program 2007
                                                                                 5(a)(6)             List of Audit Reports Issued During the          33
    PART II – AUDITS IN PROGRESS              (as of September 30, 2007)                                          Reporting Period.
                                                                                 5(a)(7)          Summary of Particularly Significant Reports.        16
                                 Official Personnel Folders
                                                                                 5(a)(8)             Statistical Tables on Audit Reports With         31
                   Review of the Office of Small Credit Union Initiatives                                        Questioned Costs.
                                    Encryption Review                            5(a)(9)             Statistical Tables on Audit Reports With         32
                                                                                                    Recommendations That Funds Be Put To
                                                                                                                     Better Use.
                                                                                5(a)(10)       Summary of Each Audit Report Issued Before the        None
                                                                                           Start Of the Reporting Period for Which No Management
                                                                                             Decision Has Been Made by the End of the Reporting
                                                                                                                       Period.
                                                                                5(a)(11)           Description and Explanation of Reasons for        None
                                                                                                 any Significant Revised Management Decision
                                                                                                       Made During the Reporting Period.
                                                                                5(a)(12)       Information Concerning Significant Management         None
                                                                                                 Decisions With Which the Inspector General is
                                                                                                                  in Disagreement.




                                      33                                                                            34
